<html>
<title> - ONLINE PHARMACIES AND THE PROBLEM OF INTERNET DRUG ABUSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        ONLINE PHARMACIES AND THE PROBLEM OF INTERNET DRUG ABUSE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________

                           Serial No. 110-186

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-149 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 24, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     3
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     5
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................     6

                               WITNESSES

Mr. Joseph T. Rannazzisi, Deputy Assistant Administrator, Office 
  of Diversion Control, Drug Enforcement Adminstration (DEA), 
  U.S. Department of Justice, Washington, DC
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Ms. Christine N. Jones, General Counsel, GoDaddy.COM, Scottsdale, 
  AZ
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mr. William T. Winsley, Executive Director, Ohio State Board of 
  Pharmacy, Columbus, OH
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Mr. Patrick J. Egan, Attorney-at-Law, Fox Rothschild, LLP, 
  Philadelphia, PA
  Oral Testimony.................................................    55
  Prepared Statement.............................................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     4


        ONLINE PHARMACIES AND THE PROBLEM OF INTERNET DRUG ABUSE

                              ----------                              


                         TUESDAY, JUNE 24, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:32 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Smith, Gohmert, 
Forbes, Sensenbrenner, Coble, Chabot, and Lungren.
    Mr. Scott. The Subcommittee will now come to order.
    And I am pleased to welcome you today to the hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security on 
``Online Pharmacies and the Problem of Internet Drug Abuse.''
    We have a growing problem where dangerous and addictive 
prescription drugs can too easily be bought over the Internet 
by anyone, including children. All they need to get relievers, 
tranquilizers, stimulants and sedatives is access to a computer 
and a credit card.
    None of the proper constraints, such as local doctors and 
pharmacists, exist in the Internet context. In most cases, 
there is no identifying information on the Web site with 
respect to where the actual pharmacy is located or who operates 
the Web site.
    A questionnaire is filled out by the customer without 
meaningful interaction between the doctor and the patient. And 
you could have a situation where a pharmacy in one State fills 
a prescription written by a doctor in another State for a 
patient in yet another State.
    The illegitimate practice is growing and will continue to 
thrive. In fact, from 2006 to 2007, there has been a 70 percent 
increase in the number of Web sites advertising or selling 
controlled prescriptive drugs over the Internet. The 2006 
National Survey on Drug Use and Health indicates that almost 7 
million people currently misuse prescription drugs.
    I hope at this hearing we will be able to find answers to 
the following questions: What is the cause and nature of the 
problem? To the extent the problem originates from Web sites 
outside the United States, how do we crack down on it? How do 
we fight rogue Internet sites without overreaching on the 
legitimate ones? And are the existing laws adequate to address 
the problem?
    With respect to the second point, I look forward to hearing 
about the ways the private sector can assist in combating 
online sales from foreign countries. We need to address the 
international aspect of this problem, and strengthening the 
public-private-sector collaboration can help provide an 
effective solution.
    Third point, I would like to stress that any legislation on 
this issue is no substitute for educational treatment and 
prevention programs.
    In addition, before enacting legislation, we need to 
consult with legitimate pharmacies who have online Web sites 
for their customers so that we do not tread on Americans' 
ability to obtain easy access and convenience in seeking their 
prescriptions.
    And finally, we need to examine whether current laws are 
sufficient to address the problem. While a mechanism currently 
exists for certifying Internet pharmacies with the National 
Association of Boards of Pharmacy, this process is purely 
voluntary.
    To mandate a registration system for Internet sites, a bill 
has been introduced in the Senate, S. 980, the Ryan Haight 
Online Pharmacy Consumer Protection Act, and I understand that 
a House companion bill on this legislation will be introduced 
shortly.
    The bill will require businesses who distribute controlled 
substances using the Internet to register with the Drug 
Enforcement Administration and to report on the nature of their 
Web sites. The bill would also prohibit the sale of controlled 
substances that are sold over the Internet without 
prescriptions and would require doctors to have at least one 
in-person consultation with patients for whom they prescribe 
controlled medication.
    In addition, the bill creates a new crime that makes it 
unlawful for any person to knowingly or intentionally deliver, 
distribute or dispense a controlled substance over the Internet 
except as authorized by the bill. Penalties would also be in 
accordance with those offered under the Controlled Substances 
Act.
    Finally, the bill increases penalties for all illegal 
distribution of controlled substances classified as Schedule 3, 
4 or 5 drugs. It also adds a mandatory minimum sentence for 
trafficking a certain date-rape drug called ``roofies.''
    Before passing any legislation, we need to examine these 
provisions further, as they are not directly linked to Internet 
sales and address drug trafficking generally. If that is the 
case, they should be dealt with in another bill.
    I look forward to hearing from the witnesses and hope the 
hearing will identify the nature and problem of how we can 
effectively deal with illegitimate online sales while 
protecting the convenience of the legitimate ones.
    That said, it is my pleasure to recognize the former 
Ranking Member of this Subcommittee, the gentleman from 
Virginia, my colleague, Randy Forbes, for his opening 
statement.
    Mr. Forbes. Thank you, Mr. Chairman. It is always a 
pleasure to be with you, and it is great to be back on this 
Subcommittee.
    And I, too, want to thank all of our witnesses for being 
here today. We appreciate your time.
    Mr. Chairman, I will yield to the Ranking Member of the 
Committee.
    Mr. Smith. Thank you.
    Mr. Chairman, are you yielding me time, or is the Ranking 
Member yielding me time?
    Mr. Scott. Well, you have got the time either way. 
[Laughter.]
    Mr. Smith. I don't want to take up the Ranking Member's 
time.
    Mr. Chairman, America is no stranger to illegal drugs and 
drug addiction. For decades, Congress has fought to curb the 
use of drugs such as heroin, cocaine and marijuana. Today 
America is facing a new threat: prescription drug abuse.
    According to the Office of National Drug Control Policy, 
prescription drugs now rank second, only behind marijuana, as 
America's drug of choice. The Drug Enforcement Administration 
estimates that as many as 7 million Americans are addicted to 
prescription drugs. Today, prescription painkillers cause a 
higher number of overdose-related deaths than cocaine and 
heroin combined.
    And large quantities of these drugs are just a few mouse-
clicks away. Hundreds of online pharmacies peddle these highly 
addictive painkillers to adults and teenagers without a valid 
prescription. The most popular of these drugs is hydrocodone, 
more commonly known as Vicodin.
    These rogue Web sites can link a patient from Texas with a 
doctor in Florida. Based on little more than an online 
questionnaire, the doctor writes a prescription, which is then 
filled by a pharmacist in a different State.
    Teenagers are fast becoming addicted to prescription 
painkillers in large part because of their availability on the 
Internet. And, sadly, some of them are dying.
    On February 12, 2001, Ryan Haight died of an overdose of 
Vicodin. He was just 18. An investigation into his death 
revealed that Ryan ordered the drug from a doctor he had never 
seen and who had never examined him. The drugs were shipped 
directly to his home by an online pharmacy.
    Congress can and must put a stop to this. And today I join 
Congressman Bart Stupak and Congresswoman Mary Bono Mack in 
introducing the Ryan Haight Online Pharmacy Consumer Protection 
Act of 2008.
    This legislation amends the Controlled Substances Act to 
address the growing sale of prescription drugs by these so-
called online pharmacies. The bill prohibits the sale or 
distribution of all controlled substances by the Internet 
without a valid prescription. It requires online pharmacies to 
display information identifying the business and any pharmacy 
and doctor associated with the Web site. The bill also provides 
tough penalties for the illegal sale of prescription drugs.
    Identical legislation sponsored by Senator Feinstein and 
Senator Sessions unanimously passed the Senate in April, and it 
is past time for the House to do the same.
    I welcome our witnesses today.
    And, Ranking Member Forbes, I yield back the balance of my 
time. Thank you for yielding.
    Mr. Scott. Thank you.
    The gentleman's time has expired. The gentleman from 
Michigan, the Chairman of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Scott.
    Does Mr. Forbes have an additional comment? I would yield 
to him if he does.
    Mr. Forbes. Mr. Chairman, I do, but I would be glad to 
defer to you and go after that, Mr. Chairman, if you are so 
inclined.
    Mr. Conyers. Oh, okay.
    Well, I thought this was going to be a very simple hearing 
here. And then I find out two things.
    One, we have got mandatory penalties all over the place. 
Now, maybe there is somebody on the panel that thinks that 
imprisoning addicts for as long as we can write the numbers in 
is a good idea. I think we will have to talk about that.
    And, of course, the distinguished Ranking Member of the 
Committee, he and I are in ongoing discussions on every subject 
before the Judiciary Committee, so we will just add that one to 
the list.
    But, you know, doubling--we imprison more people than 
anybody on Earth, and here we are dealing with a unanimously 
passed Senate product that says, ``Hey, let's go for more.'' 
Schedule 3, from 5 years, plus 2 years, new penalty, 10 years. 
A schedule 3, bodily use, 10 years, 20 years. Date rape, oh, 
gosh, that is 20 years, easy. And so we go on down the line.
    I mean, what is this? Why? What possible salutary effect 
can it have? And what kind of deterrent do you think it is 
going to have on anybody that may be thinking about doing it?
    So I will be talking to my dear friend and colleague, Bart 
Stupak, and of course Ms. Bono about this. We need a new bill, 
Chairman Scott. I don't want to be fooling around trying to 
amend this in the full Committee. And besides, we have got to 
be careful how we stop these illegal Internet pharmacy sites 
without getting it confused with the legitimate ones.
    And so I will put the rest of my statement in the record, 
and look forward to the testimony.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    In 2007, more than 500 internet sites advertised or sold controlled 
prescription drugs, such as Vicadin, Oxycontin, Valium, and Ritalin, 
and nearly 85 percent of these sites did not require an actual 
prescription.
    Online pharmacies present enormous implications for the health and 
safety of our communities and our children. In most instances, all that 
a person needs to buy these drugs is access to a computer and a credit 
card. As a result of the absence of any meaningful controls, even 
children can purchase prescription drugs online.
    Earlier this year, the Senate passed S. 980, dealing with online 
pharmacies. While a good start, the measure may have unintended 
consequences and impact individuals other than illegal drug dealers.
    It is my hope that any bill considered in the Judiciary Committee 
satisfies three principal goals.
    First, the legislation should not burden our already struggling 
health care system. Currently, there are 47 million uninsured Americans 
and another 50 million Americans who are under-insured. While some 
people buy drugs from these rogue internet sites for illegal purposes, 
others purchase them for legitimate medical reasons. We must carefully 
evaluate the impact of any measure on the cost of health care and 
prescription drugs for these millions of struggling Americans.
    For example, my bill, H.R. 676, would establish a universal health 
insurance program with single-payer financing that would cover all 
medically necessary services, including prescription drugs. This 
program would significantly reduce, if not eliminate, these rogue 
sites. At the very least, my program would make it much easier to 
identify illegal conduct from legal conduct. In the meantime, though, 
we need to consider whether there is more focused legislation that we 
can implement with respect to rogue internet pharmacies.
    Second, the legislation must address the problem of illegal 
internet drug dealers. There are many legitimate pharmacies that use 
the internet to serve their customers. In addition, many insurance 
companies work with legitimate internet pharmacies to provide 
prescription drugs to patients, often at a reduced rate and increased 
convenience of the patient. The legislation should recognize the value 
of these pharmacies, and seek to stop the illegal internet pharmacy 
sites without substantially burdening the legitimate ones.
    Third, we need to recognize that the answer to substance abuse 
problems is not longer sentences in prison. The current penalties for 
controlled substance crimes--whether committed on the street or through 
the internet--are sufficiently harsh.
    Instead of imprisoning drug addicts for even longer periods of 
time, we should address the underlying problem of substance abuse. To 
that end, we should support educational programs that teach our 
children about the dangers of drug use and encourage providing 
community activities for our teenagers so that they don't turn to drugs 
out of boredom. And, we should support meaningful drug treatment 
programs.
    I look forward to hearing from all of our witnesses today and hope 
they will provide us with a better understanding of the problem and 
possible solutions.

    Mr. Scott. Thank you. And I thank the Chairman for his 
comments.
    The gentleman from Virginia?
    Mr. Forbes. Thank you, Mr. Chairman.
    And, again, we just want to point out that somewhere in 
America right now, a person is purchasing highly addictive 
painkillers from an Internet Web site. That Web site operator 
has no medical training. He is not licensed by the DEA of the 
State to dispense prescription drugs. The doctor has never 
examined this person, but he writes the prescription anyway, 
not for 10 pills or 20, but for 100.
    The dangers posed by illegal online pharmacies are real. 
The National Center on Addiction and Substance Abuse reports a 
542 percent increase in the abuse of prescription opiates among 
12 to 17 year olds between 1992 and 2000.
    These Web sites dispense large amounts of controlled 
substances, many characterized as Schedule 3 or Schedule 4 
drugs under the Controlled Substances Act.
    The National Association of Boards of Pharmacy operates the 
Verified Internet Pharmacy Practices Sites accreditation 
process. To receive a VIPPS accreditation, a pharmacy must 
comply with the licensing requirements of its State and each 
State in which it dispenses medication. However, this 
accreditation process is merely voluntary, as the Chairman 
mentioned earlier.
    Internet pharmacies are not only a source for obtaining 
prescription pain medication, a good number of the drugs 
purchased from these illegal Web sites are counterfeit. Most 
counterfeit drugs come from overseas and are imported to the 
United States with false documentation. These drugs are often 
expired, diluted or mixed with other toxic substances.
    Patients purchasing drugs from these Web sites have no 
guarantees as to the drug's safety. Moreover, they may 
experience a dangerous drug interaction or side effect from 
ingesting drugs without proper medical supervision.
    More than 80 percent of packages intercepted and examined 
at U.S. mail facilities have contained either unapproved 
foreign drugs, controlled substances or counterfeit drugs. 
According to the Food and Drug Administration, the number of 
fraudulent prescription drugs intercepted by customs officials 
nearly doubled between 2004 and 2005.
    Last year, the FDA was alerted that drugs such as Ambien, 
Xanax, Lexapro and Ativan ordered online were found to contain 
a powerful antipsychotic drug. The antipsychotic drug compound 
was haloperidol and is used in medications prescribed for 
schizophrenia.
    Also last year, the FDA issued a warning against the 
purchase of the weight-loss drug Xenical from online 
pharmacists. Tests showed that capsules purchased off the 
Internet did not contain orlistat, Xenical's active ingredient. 
Some contained only talc or starch. Others included 
sibutramine, the active ingredient in another weight-loss drug, 
Meridia.
    Although Xenical and its active ingredient, orlistat, are 
not listed on the schedule under the Controlled Substances Act, 
sibutramine is listed as a Schedule 4 controlled substance.
    It is clear from these few examples that illegal online 
pharmacies pose a serious threat not only to those who have 
used narcotics but also to unsuspecting consumers.
    I commend Mr. Smith, the Ranking Member of the Judiciary 
Committee, for his leadership on this issue.
    Again, Mr. Chairman, I commend you for holding this 
hearing.
    And I thank all of our witnesses for their time and 
expertise, and I look forward to their comments.
    And I yield back the balance of my time.
    Mr. Scott. Thank you very much.
    I would ask unanimous consent that other Members' opening 
statements be made----
    Mr. Chabot. Mr. Chairman?
    Mr. Scott [continuing]. Part of the record at this point.
    The gentleman from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I would ask unanimous 
consent to make an opening statement, and I will keep it to 
about a minute, if I could?
    Mr. Scott. Without objection.
    Mr. Chabot. Thank you.
    Mr. Chairman, I, again, want to thank you and the Ranking 
Member for holding this hearing. And I also want to welcome one 
of the witnesses that we have here, who is from the great State 
of Ohio, Mr. Winsley, executive director of the Ohio State 
Board of Pharmacy.
    The problem of prescription drug abuse is real and it is 
growing. With more than 7 million prescription drug abusers in 
this country, according to the DEA, rogue Internet pharmacies 
and Web sites only compound the drug problem, giving criminals 
new avenues to prey on the vulnerable.
    While passage of the Ryan Haight Online Pharmacy Consumer 
Protection Act would be a positive first step, in my view, 
effective communication between State and Federal law 
enforcement and the private sector, including the pharmacies, 
manufacturers and distributors, is, I believe, key to staying 
ahead of the criminals and using technology to our advantage.
    Again, I thank the Chairman and the Ranking Member for 
holding this hearing. And I yield back the balance of my time.
    Mr. Scott. Thank you.
    Without objection, other Members' opening statements will 
be made part of the record at this point.
    We have a distinguished panel of witnesses here today to 
help us consider the important issues currently before us.
    Our first witness is Joseph Rannazzisi, who began his 
career with the U.S. Drug Enforcement Administration in 1986. 
In 2006, he was appointed to the position of deputy assistant 
administrator for the Office of Diversion Control. In this 
position, he is responsible for overseeing and coordinating 
major diversion investigations, drafting and promulgating of 
regulations, establishing drug production quotas, and 
conducting liaison with various State and Federal agencies. He 
holds a B.S. degree in pharmacy from Butler University and a 
J.D. from Detroit College of Law at Michigan State University.
    Our next witness will be Christine Jones, general counsel 
of the Go Daddy Group. As general counsel, she is responsible 
for all legal affairs at the Go Daddy Group, as well as the 
Domain Services, Network Abuse, Compliance, and Legal 
departments. Her previous legal practice focused on complex 
commercial litigation. She worked for the Los Angeles District 
Attorney's Office prior to entering private practice. She holds 
a bachelor of science degree in accounting from Auburn 
University and a J.D. from Whittier Law School.
    The next witness will be William T. Winsley, who is 
executive director of the Ohio State Board of Pharmacy. He has 
been with the Board of Pharmacy since 1988, starting as a 
pharmacist investigator, moving to assistant executive director 
in 1991, and has been serving as executive director since 1998. 
Prior to employment with the board, he was a practicing 
pharmacist and pharmacy administrator with three different 
hospital pharmacies for a total of 14 years. He holds a B.S. in 
pharmacy and an M.S. in hospital pharmacy management from Ohio 
State University.
    And our final witness will be Patrick J. Egan, who is a 
partner at the Fox Rothschild Attorneys at Law, where he is 
chairman of the white-collar practice group. He has nearly 20 
years of experience in representing businesses, executives, 
professionals and other individuals in Federal white-collar 
criminal defense matters. His experience includes defending an 
Internet pharmacy site in the Federal grand jury investigation. 
He graduated from Pennsylvania State University and received 
his J.D. from Temple University School of Law in 1986.
    We begin with Mr. Rannazzisi.

      TESTIMONY OF JOSEPH T. RANNAZZISI, DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF DIVERSION CONTROL, DRUG ENFORCEMENT 
ADMINSTRATION (DEA), U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Rannazzisi. Good morning, Chairman Scott, Ranking 
Member Forbes, Chairman Conyers, distinguished Members of the 
Subcommittee.
    On behalf of Acting Administrator Michele Leonhart and the 
men and women of the Drug Enforcement Administration, I want to 
thank you for the opportunity to discuss the problem of 
prescription drug abuse and, in particular, the illegal 
distribution of controlled pharmaceuticals via the Internet.
    As you may know, nonmedical use of addictive prescription 
drugs has been increasing throughout the United States at 
alarming rates. According to the 2006 National Survey on Drug 
Use and Health, 7 million Americans used psychotherapeutic 
drugs nonmedically, with 5.2 million reportedly abusing pain 
relievers. Nationally, the misuse of prescription drugs 
remained second, only to marijuana.
    While forged prescriptions, doctor shopping and simple 
theft from medicine cabinets are all means by which highly 
addictive pharmaceutical controlled substances are diverted, 
the Internet has become an increasingly common method of 
diverting these drugs via rogue Internet pharmacies.
    The sheer volume of controlled substances being dispensed 
anonymously by rogue Internet pharmacies contributes 
significantly to the downstream methods of diversion. Illicit 
Internet sales of controlled sales of controlled substances 
commonly involve 100 or more pills per transaction. These sales 
occur hundreds of times per day.
    For example, in 2006, DEA identified 34 known or suspected 
rogue Internet pharmacies that dispensed over 98 million dosage 
units of hydrocodone-combination products. To put this into 
perspective, the average legitimate pharmacy in the U.S. 
dispenses approximately 88,000 dosage units of hydrocodone-
combo products per year.
    DEA investigations of these Internet traffickers have found 
that the vast majority are linked to DEA-registered pharmacies 
and DEA-registered doctors. It should be noted that there are 
legitimate pharmacies that provide controlled substances----
    Mr. Scott. Excuse me. Did you say they are or are not?
    Mr. Rannazzisi. They, for the most part, are related to DEA 
pharmacies that are registered DEA pharmacies and doctors.
    It should be noted that there are legitimate pharmacies 
that provide controlled substances via the Internet and operate 
daily within the boundaries of the law.
    However, as a point of clarification, there are many Web 
sites on the Internet that merely offer to sell controlled 
substances illegally. A Google keyword search such as 
``hydrocodone no prescription needed'' reveals thousands upon 
thousands of hits.
    While the drug-seeker may go through several portal sites 
offering controlled substances, eventually the individual will 
be linked to the anchor Web site, or what we term the 
``Internet facilitation center.'' These facilitation centers 
are the linchpin in the criminal scheme. They link drug-seekers 
to rogue doctors and rogue brick-and-mortar pharmacies or 
illicit Internet pharmacies in exchange for huge profits.
    Under current law, however, these Internet facilitation 
centers are not required to register with DEA. And the 
Controlled Substances Act did not take into account the 
technological advances that have taken place since the CSA was 
established. The anonymity afforded by the Internet poses 
numerous challenges to law enforcement.
    Despite the challenges, DEA has identified, disrupted and 
dismantled several illegal operations involved in this growing 
threat. When we are able to identify these individuals and 
businesses, we investigate and shut down those that operate 
outside the boundaries of the Controlled Substances Act.
    DEA is also targeting the source of supply for many rogue 
Internet pharmacies. The DEA registered wholesalers and 
distributors. DEA has initiated an education program for 
wholesalers and distributors to explain how these rogue schemes 
operate and reinforce what their requirements are under the 
CSA.
    When appropriate, DEA has taken legal action against the 
wholesalers and distributors who are not complying with their 
statutory obligations and providing rogue Internet pharmacies 
with huge quantities of controlled substance pharmaceuticals.
    In addition to working with DEA registrants, DEA has also 
developed a productive relationship with other businesses that 
are affected or inadvertently used to facilitate the Internet 
distribution.
    Finally, we continue to build upon solid, interagency 
partnerships with FDA, FBI, CBP, ICE, as well as the individual 
State boards of pharmacy and medicine. With that, it should be 
noted that interagency engagement on this topic has been 
ongoing for years.
    These discussions culminated with the Administration's 
formal endorsement of the Ryan Haight Online Pharmacy Consumer 
Protection Act of 2008. This bill updates the CSA to set both 
permissible and impermissible conduct for Internet Web site 
operators, medical practitioners, and pharmacists involved in 
Internet distribution of controlled substances. This bill will 
provide law enforcement with additional tools to identify and 
shut down these illegal operations, thereby helping protect the 
American people.
    Chairman Scott, distinguished Members of the Subcommittee, 
drug traffickers continue to exploit the Internet and threaten 
the health and safety of Americans. Nonetheless, the men and 
women of the Drug Enforcement Administration remain committed 
to bringing to bear all of the resources at our disposal to 
fight this growing problem while simultaneously ensuring an 
uninterrupted supply of controlled substances for legitimate 
demands.
    Thank you for the opportunity to discuss this vital issue, 
and I would welcome any questions.
    [The prepared statement of Mr. Rannazzisi follows:]

               Prepared Statement of Joseph T. Rannazzisi

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Thank you very much. I failed to 
advise you of the lights before you that indicate the 5 
minutes. You did well and came in right under.
    The green light will stay on for 4 minutes, the yellow 
light for 1 minute. We would ask you to summarize your 
testimony in 5 minutes, as best as you possibly can.
    Ms. Jones?

TESTIMONY OF CHRISTINE N. JONES, GENERAL COUNSEL, GODADDY.COM, 
                         SCOTTSDALE, AZ

    Ms. Jones. Good morning, Mr. Chairman.
    First, thank you for the invitation to be here today. We 
are grateful for this Committee's attention to this problem and 
for recognizing that online drug sales are a problem that must 
end.
    The purpose of my testimony is to describe the scope of the 
problem we all face and how Go Daddy specifically responds to 
those challenges.
    Go Daddy is interested in this issue because we often get 
requests from the DEA, for example, or other law enforcement 
agencies to disable online drug sites, and, as of today, there 
is no law we can rely on to help them. And we believe there 
should be such a law.
    So we are committed to taking whatever steps are necessary 
and feasible to assist in ending this practice. And we would 
also challenge our counterparts on the Internet to do the same.
    A domain name registrar serves as, sort of, the point of 
entry to the Internet. So, for example, if you wanted to become 
ChairmanScott.com, you could go to GoDaddy.com and get that 
name. Well, you can't, because I registered that name in 
anticipation of this hearing, but if I hadn't done that, you 
could. I will be happy to help your staff get that afterwards. 
[Laughter.]
    No, I won't sell it. It only cost $9.99.
    A domain name registrar is different from an ISP like AOL 
or MSN or EarthLink in that the ISP provides access to the 
Internet; the registrar provides the registration service for a 
dot-com name and the like.
    Once you have ChairmanScott.com, you would have to build a 
Web site, and then you would have to find a place to actually 
put the files for your Web site. Again, you could go to 
GoDaddy.com for that service. And we call that ``hosting'' 
service.
    A hosting provider differs from an ISP in that the hosting 
provider provides space on a computer; the ISP provides access 
to the computer that has the data on it.
    The Go Daddy Group devotes considerable time and resources 
to working with law enforcement on preserving the integrity and 
security of the Internet by quickly closing down Web sites and 
domain names engaged in illegal activities.
    We work with law enforcement agencies at all levels--
Federal, State and local--and routinely assist in a wide 
variety of criminal and civil investigations. We also work with 
groups like the Anti-Phishing Working Group, Digital Phish Net, 
and so on.
    We have made it a high priority to use our position as the 
world's largest registrar to try to make the Internet a better 
and safer place.
    Often we end up investigating sites involving online drug 
sales. They come in many forms and degrees of severity. And 
they include things like sites with invalid contact data; sites 
depicting counterfeit or copycat drugs purporting to be drugs 
produced by major pharmaceutical companies, and you alluded to 
those in your opening statement; sites selling advertising 
advocating or promoting the use of drugs by minors; sites which 
admit to filling orders without a prescription.
    Our investigations also uncovered sites containing offers 
to provide controlled substances via prescription provided by a 
``doctor'' employed by the Web site operator. These sites 
typically don't verify age, medical history or medical 
necessity. The result is that any 14-year-old can go on the 
Internet and have a supply of recreational drugs sent to their 
home via overnight courier with no questions asked.
    We take each instance of this seriously and devote high-
priority attention to ensuring full cooperation with law 
enforcement in their attempts to remove such Web sites from our 
network.
    We have nearly 30 million domain names. In fact, tomorrow 
we are going to go across the threshold of 30 million domain 
names under management. We can't look at all of them. But what 
we can do is work with law enforcement to try to address this 
problem.
    Within the first 6 months of 2008, we have shut down or 
suspended over 6,000--6,000--online pharmacy domain names, in 
the first two quarters of 2008. When I say ``shut down,'' that 
means if it were a brick-and-mortar store, it would be like 
putting a lock on the door so you can't do business with those 
people anymore.
    Six thousand in 6 months--we think that is a lot. And the 
trend is growing. For all of 2007, we had 1,300. So the problem 
is getting big, and the scale is huge.
    And, you know, this isn't just about people trying to save 
money on prescription drugs by unknowingly buying counterfeit 
brand-name pills. This is about young kids who use their 
parent's credit card, they tell them they are buying music or a 
videogame or some legitimate purchase; instead, they are able 
to stock the weekly party with enough ecstasy for them and all 
their friends. It is very, very serious.
    The good news about having--well, what we have discovered 
is that there is a small core of vendors who run a very large 
number of Web sites. And I think Mr. Rannazzisi alluded to 
that. The good news is that, for the most part, if you can get 
to them and get them to stop, you have a large benefit on the 
other end. The bad news is that one company's actions--for 
example, Go Daddy--regardless of how much we may help, isn't 
enough.
    So effective legislation in this area, we think, may help 
overcome this problem. If we can either convince the 
illegitimate pharmacy sites that it is not going to be in their 
best interest to continue the same practices or if we can 
standardize the level and type of responses from providers--for 
example, our counterparts--we may all be able to see success 
for the Internet, much like we have seen within Go Daddy as we 
have responded to these.
    Again----
    Mr. Scott. Can you wrap up?
    Ms. Jones. Yes. I just want to say thank you for the 
opportunity to be here and to be heard on these issues. And I 
will be happy to answer any questions.
    [The prepared statement of Ms. Jones follows:]

                Prepared Statement of Christine N. Jones

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mr. Winsley?

TESTIMONY OF WILLIAM T. WINSLEY, EXECUTIVE DIRECTOR, OHIO STATE 
                BOARD OF PHARMACY, COLUMBUS, OH

    Mr. Winsley. Thank you, Mr. Chairman, for allowing me the 
honor of presenting oral and written testimony before you 
today.
    I am here primarily to describe the limited progress that 
the States have made in dealing with the overwhelming problems 
presented by the ready access of drugs via the Internet, with 
my primary focus of course being on what Ohio has done in this 
regard.
    I would first like to say that, in my opinion, the people 
that I talk about here today are not accurately described by 
the term ``Internet pharmacies.'' To me, an Internet pharmacy 
is one that is properly licensed to fill legitimate 
prescriptions written by a doctor who is practicing in a valid 
doctor-patient relationship and they comply with all the laws, 
rules and regulations that are necessary, just like most of the 
brick-and-mortar pharmacies do. In other words, my concern 
today is not with those sites like Walgreens.com, CVS.com, 
Medco.com or the many other legitimate pharmacies that are out 
there doing business on the Internet.
    The Web sites I have problems with are those that I 
describe as Internet drug dealers or, more appropriately, 
Internet drug traffickers. These sites are responsible for 
pouring millions of doses of prescription drugs, controlled 
substances, into the hands of consumers with little or no 
regard to the possible harm they could be doing.
    If that description makes them sound like street-corner 
drug dealers, then I have accomplished my purpose here today. 
In many cases, there is more similarity to street-corner drug 
dealing than there is to legitimate medical care. The advantage 
to using the Internet, as Mr. Rannazzisi pointed out, is that 
it is easier for the principals to hide.
    My written testimony contains brief descriptions of four 
investigations that we have conducted in Ohio since 1998. The 
methods used by the Internet drug dealers are constantly 
changing to counteract the enforcement processes of local, 
State and Federal agencies. And it is getting a lot harder to 
track them down and even harder to convict them.
    Federal help is needed to help slow down this flood of 
illicit drug sales.
    To demonstrate what I mean by using the word ``flood,'' let 
me just talk about the last two cases that we have done in 
Ohio. They are described in more detail in my written 
testimony.
    But each case involved a small, independent pharmacy who 
filled illegal prescriptions from the Internet for only 4 
months each, only 4 months for each of the pharmacies. And yet, 
together, they managed to fill over 14,000 illegal 
prescriptions and dispense over 1.2 million doses of 
hydrocodone products to people all over the United States. Four 
months, two small, independent pharmacies, 1.2 million doses of 
hydrocodone products. They also shipped other drugs, but 
hydrocodone was the major one.
    Now, both of the pharmacists involved had their licenses 
revoked by the Board of Pharmacy in Ohio, but the principals in 
the scheme were safely tucked away in another State, where we 
had no jurisdiction and little ability to get to them.
    These cases involved only two pharmacies in Ohio, one in 
Columbus and one in Nelsonville, Ohio, which is a small town 
about an hour southeast of Columbus. I know there are more 
pharmacies in Ohio doing this. We have multiple investigations 
going on even as we speak.
    From talking to my colleagues around the country, I know 
that Ohio is not unique and every State is facing problems like 
this. Every State has small, independent pharmacies that are 
shipping millions of doses out via illegal Internet 
prescriptions. It just boggles my mind to imagine how much 
hydrocodone is hitting the streets.
    There are some activities going on that will help deal with 
this problem. As an addendum to my written report, I have 
provided some information about VIPPS, which you have already 
heard about, and a new program that NABP has started, known as 
the Internet Drug Outlet Identification program.
    A review of this report on the Internet drug outlet program 
will identify for the Committee a lot more problems than I have 
time to talk about today. There are about 139 Internet drug 
outlets that NABP has identified as problem sites. Many of them 
appear to be linked to one common network. Many of them are 
foreign. And most of them do not require a valid prescription.
    The States and the Federal agencies charged with dealing 
with this problem need some help. I would suggest to you that 
Senate 980 appears to provide some of that help for controlled 
substances. I would encourage the Committee to carefully review 
this bill and move it along so it could become law. With the 
addition of the language contained in this bill, Federal and 
State agencies will have a lot greater ability to deal with the 
people causing all these problems.
    Mr. Chairman, Committee Members, thank you for the 
opportunity to testify today. I look forward to discussing the 
issue with you further when it is time for questions. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Winsley follows:]

                Prepared Statement of William T. Winsley

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    I want to recognize the fact that the gentleman from North 
Carolina, Mr. Coble, and the gentleman from California, Mr. 
Lungren, have joined us.
    Mr. Egan?

        TESTIMONY OF PATRICK J. EGAN, ATTORNEY-AT-LAW, 
             FOX ROTHSCHILD, LLP, PHILADELPHIA, PA

    Mr. Egan. Good afternoon, Mr. Chairman and distinguished 
Committee Members. Thank you very much for the opportunity to 
present this testimony. It is with great honor that I do this, 
and I appreciate the invitation very much.
    I would like to note that the views that I am expressing 
are my personal views and not those of the firm that I practice 
with.
    I am here to discuss the big picture of the Internet 
pharmacy and how it works into the overall health-care issues 
that this country faces. Because, for every action, there is an 
equal and opposite reaction. We have all been taught that since 
we were children. And the fact of the matter is that the 
Committee and Congress has focused, I believe, and certainly 
the bill in the Senate focuses on one area of the issue without 
looking at the bigger picture.
    At this particular time, what we really need to address is 
whether the Internet pharmacy system, as it presently exists, 
is one which is benefiting only those who wish to abuse 
controlled substances and those who wish to deal drugs to them, 
or whether it is also benefiting the larger public who has 
health-care issues that need to be addressed.
    And I believe that there has not been any type of empirical 
research done which would indicate that the majority of people 
who purchase prescription drugs via the Internet are doing so 
to abuse them or whether they are individuals who could not 
otherwise avail themselves to access to those prescription 
drugs.
    For instance, in this country there are many people who 
live in rural areas where it is a long way to go to get to a 
doctor. In this country, as we know all too well, there are 
many uninsured and underinsured individuals who do not have 
access to go to a doctor and obtain a visit when they need to 
get prescription drugs.
    We have two major problems in this country on the health-
care level. One of them is obesity, and another is pain. Many, 
many thousands of people die from obesity every year. What 
Congress appears to be doing here is focusing on the issue of 
drug abuse and those individuals who suffer from drug abuse, 
which is indeed a tragedy, without considering what the actions 
that might be taken, what effect they may have on the ability 
of others to obtain health care.
    An additional concern that I believe should be addressed is 
whether, by passing legislation which criminalizes this type of 
behavior, what you are really doing is forcing those who would 
obtain prescription drugs and controlled substances illicitly 
through the Internet away from sites that are run by 
legitimate, licensed pharmacies in the United States to sites 
that are run offshore, where we have no control, where all of 
the evidence indicates that the majority of the drugs are often 
counterfeit.
    And, indeed, if you look at the particular bill that was 
passed by the Senate, essentially what it does is it asks the 
DEA to go and take a look at what happens with regard to these 
offshore Web sites.
    But there is no means for any control over them, because 
they are offshore. What you are going to do is take the model 
that is presently taking place in this country and you are 
going to take that model away, which is going to drive people 
who either need pain medication or diet medication to these 
offshore sites and away from sites that are presently operated 
in what might not appear to be traditionally the way that it 
would have been done but, with the issues that are facing this 
country and the technological advances, may well turn out to be 
a model that might work for the future.
    There are presently Internet pharmacies operating in this 
country where you are able to obtain a prescription drug 
without a face-to-face visit with a doctor. The DEA has termed 
that not a valid prescription. The question is whether you want 
to codify that in the law. And that is what is being suggested 
to you by some of the other distinguished people on this panel.
    I would suggest that when you look at the best approach 
that it would be to regulate further those pharmacies, rather 
than to criminalize their behavior. For instance, there are 
computer programs whereby pharmacies can have a check on 
addresses and make sure that they are not sending back to the 
same address any sooner than they should within the period that 
those drugs would be used. So if an individual at this address 
orders a drug on day 1 and tries to come back and order on day 
3, they are refused.
    There are pharmacies that are run by licensed pharmacists 
and there are doctors who are licensed doctors reviewing these 
questionnaires, and they are not being paid more to grant every 
single description. They are being paid by the review. If you 
have that in place, you have licensing authorities who can 
exercise control over these people. But if you criminalize that 
behavior, that particular section of the industry will 
disappear, and, instead, what you will have is only offshore 
pharmacies.
    Moreover, I would like to echo the statements that were 
made at the start of this by some of the distinguished Members 
of Congress. For decades, Congress has fought to curb drug 
abuse. I would suggest that, for decades, Congress has fought 
to curb drug abuse through the imposition of more serious 
penalties and mandatory minimum sentences. And I would suggest 
that the empirical evidence is that, for decades, that has 
failed.
    The time has come to look at appropriate regulations that 
can actually handle these problems without locking up millions, 
thousands, whatever the numbers are, of people. And the 
mandatory minimum that is attached to this bill has nothing to 
do with Internet pharmacies. And, to me, the legislation smacks 
of the 1980's, not of 2008, when we need to take an intelligent 
approach to these problems.
    [The prepared statement of Mr. Egan follows:]

                 Prepared Statement of Patrick J. Egan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much.
    We have a vote pending, and we will recess----
    Mr. Conyers. Mr. Chairman?
    Mr. Scott. The gentleman from Michigan.
    Mr. Conyers. Could I get two cents in before we go?
    Mr. Scott. The gentleman is recognized for 5 minutes for 
the purpose of questioning.
    Mr. Conyers. We have been doing a little talking and 
thinking here. The problem that we have got the hearing on is 1 
percent of the total drug problem. The picture that, globally, 
trafficking globally in drugs is $300 billion; the U.S., it is 
$65 billion. We spend about $45 billion--I think that includes 
DEA, as well--in the U.S. fighting it.
    And we incarcerate--this year, incarcerated for drug law 
offenses is 5,233 people so far. About 25 percent of our 
inmates are serving sentences for drug law violations.
    Now, here is why we have a legislative branch: for you to 
keep doing the same thing over and over and wondering why we 
are going to get about that many, even if we did it correctly.
    Why is this problem so intractable?
    These are annual figures, by the way, these billions that I 
am talking about.
    What is it about fighting drugs at the Federal level and at 
the State level and at the global level? What is happening 
here? Does Big Daddy know yet? Or does Little Daddy even know? 
What is going on, folks?
    Because the first thing we know, we have got to write a new 
bill. I am not buying--you know, I was so happy when I came 
here this morning, Chairman Scott. I said, ``Finally, the 
Senate got ahead of us on something.'' Well, they did, and they 
got it wrong. And now we have got to--unanimously wrong. I 
mean, it wasn't a close question.
    So what is happening? You are the experts. We brought you 
here to tell us.
    All right, I am going to pick somebody if you don't 
volunteer.
    Mr. Rannazzisi. I will jump in.
    Where can I begin? The fact is that the drugs that are--I 
don't know your figures, I don't know where the 1 percent came 
from. So I am really in the dark as far as where the figures 
are and how you got them.
    However, what I can tell you is that the drugs that are 
illegally distributed through Internet pharmacies are just as 
dangerous as any of the other drugs that are distributed on the 
street. Hydrocodone is a very potent narcotic. It will hurt you 
just as much as heroin will if taken unsupervised----
    Mr. Conyers. No, I am not questioning the potency of these 
illegal drugs and legal drugs being pursued commercially 
illegally. I mean, what is it about the nature of drugs in our 
culture that make this--I mean, we are spending hundreds of 
billions of dollars locking up people. We come here with a 
dozen mandatory sentences to lock up people more and longer. We 
are already incarcerating more people than anybody on Earth, 
including China, Russia and anybody else.
    That is the problem I want--I don't want an explanation 
about how potent the drug is.
    Mr. Rannazzisi. I----
    Mr. Conyers. All right, I am calling on somebody else.
    Mr. Rannazzisi. Well, I just, if I could respond----
    Mr. Conyers. That is a good try.
    Mr. Rannazzisi. I----
    Mr. Conyers. All right, Daddy, Big Daddy, what have you got 
to say? Go Daddy.
    Ms. Jones. Thank you.
    I don't know why people like to do drugs. It has never been 
my thing.
    I do think that if you are spending $300 billion a year to 
fight the problem, we are not educating people enough about the 
dangers of it. Right? So if you give me a tool--all I need is a 
database that says either you are authorized or you are not 
authorized to sell drugs online. That is all I need.
    I will have to defer to my distinguished colleagues on drug 
sentencing and whether or not 5 years or 10 years is 
appropriate for a guy who sells oxycodone to a 12-year-old, 
okay, but----
    Mr. Conyers. Well, look, I know about your law enforcement 
background. You are an ex-prosecutor yourself. So don't blame 
the gentleman to your right.
    Ms. Jones. Well, I can tell you when I was a prosecutor, a 
vast, vast majority of the cases that I tried, drug cases, 
right? I tried cases in Compton. You may have heard of it 
before. It is outside Los Angeles. Lots of drug users. You know 
what? We always had a theory that if we didn't get the guy the 
first time, that was okay because he was going to be back. So 
it is a big problem----
    Mr. Conyers. Well, that should have reflected--you got 
awards for that, I presume.
    Ms. Jones. I didn't get any awards. And neither did we seek 
any awards. That is not why we did it.
    But I do think if you are going to take $300 billion a year 
and spend on this problem, you might take a little bit of it 
and try educating people about the dangers of using drugs.
    Mr. Conyers. Well, how about prosecuting effectively, as 
opposed to getting longer and longer sentences? And I agree 
with you, education is part of it.
    Okay, I will give you another chance.
    Mr. Rannazzisi. If we could go back to S. 980 a second, I 
am kind of confused you suggested that there were minimum 
mandatories in S. 980. The way I understand S. 980 to be is 
that they are raising the caps for Schedule 3, 4 and 5 drugs, 
just raising the cap.
    If you look at the guidelines for these drugs, if you are 
looking at a Schedule 3 drug, if I am not mistaken, I think a 
level 20 in the guideline runs about 40,000 tablets that you 
have to be connected to, the distribution of 40,000 tablets----
    Mr. Conyers. So you don't think doubling the sentences is 
mandatory?
    Mr. Rannazzisi. I think that doubling the sentences is a 
deterrent, yeah, because right now under the current 
guidelines----
    Mr. Conyers. I am sure those guys out there look up the 
statutory sentencing----
    Mr. Rannazzisi. I beg to differ, but I think they do. These 
are white-collar criminals. These are people who are doing this 
knowingly and intentionally, using their licenses, their 
medical licenses----
    Mr. Conyers. Yeah, right, that is who she was locking up 
out in Compton.
    Mr. Rannazzisi. It is a facade for a medical process that 
doesn't exist. They are exploiting----
    Mr. Conyers. Okay. And I am sure the white-collar criminals 
here are very worried about whether there is a mandatory or 
not.
    Mr. Rannazzisi. I think they--I believe they do.
    Mr. Conyers. So that is why the drug problem is getting 
worse and worse.
    Mr. Scott. If you could hold your point, we have got 2\1/2\ 
minutes to get to the floor, and you will be the first--you 
will get to answer as soon as we get back.
    The Committee is in recess.
    [Recess.]
    Mr. Scott. The Committee will come to order.
    Mr. Winsley, you were about to say something when I cut you 
off.
    Mr. Winsley. Thank you, Mr. Chairman. I just was going to 
comment on the purpose of the bill in dealing with the drug 
problem.
    The drug problem in the United States is made up primarily 
of two factors: One is the people that are abusing the drugs, 
and one is the people that are providing the drugs to them.
    The purpose of this bill is to deal with the people that 
are providing the drugs to them. That is the job of DEA, that 
is my job, to enforce the laws. We certainly are not opposed to 
the treatment programs, but we are not part of the treatment 
programs.
    This bill, the criminal penalties that are in it, unless I 
misread the Federal law, they deal with the trafficking 
section, not with the abusing section. This bill does nothing 
to the users. This bill only addresses those that are 
trafficking. That section of law that is referred to in this 
bill deals with those who manufacture, distribute, dispense or 
possess for purposes of manufacturing.
    And so I just would point out that this bill will deal with 
a small part of the problem, but it will deal effectively with 
the part of the problem that is caused by those people who are 
trafficking in these controlled substances. And that is a big 
issue and becoming even bigger.
    Thank you, sir.
    Mr. Scott. Thank you.
    The gentleman from California.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I am sorry that the Chairman of the full Committee is not 
here because we have had discussions over the years on our 
approach to drug problems, and one of the complaints that he 
and others have registered is that we don't go after all drug 
dealers alike, that it is easy for us to go after drug dealers 
on the street corner in the inner-city but we don't go after 
them elsewhere.
    It seems to me this bill is an approach to try and deal 
with another part of the problem, which seems to me we ought to 
be concerned about, the abuse of prescription drugs, illegally 
dispensing them, illegally making them available outside the 
construct of the law that we have set up over the years.
    Mr. Egan, I am a little confused about your testimony, and 
that is this. If I were to take the arguments that you have 
made against this bill, they would be arguments against the 
current set of laws that we have with respect to drugs. Is that 
correct?
    Mr. Egan. I don't think it is necessarily correct, but I do 
think you could certainly extrapolate that my view is that the 
war on drugs is a failure and that increased sentences and 
further criminalization of what is essentially a societal 
problem has been taking place for over 25 years. And I think 
the evidence is fairly clear that it is not working and that 
we, as a society, need to rethink that.
    And, frankly, I am hoping that this body will look at that 
a whole lot more closely and have the courage to maybe try 
something new.
    Mr. Lungren. What would you say about the fact that most 
recent reports suggest that drug use among young people is 
down?
    Mr. Egan. I would say that it has a lot more to do with 
education.
    For instance, if you take what has been going on in the 
western states with regard to the use of methamphetamines and 
the advertising program that has been taking place out there, 
which has been largely funded by private dollars, which has 
indicated that the use of methamphetamine has been cut by a 
great amount through that type of education, and if you look at 
parenting and education of young people on these issues, those 
are successful means for attacking the problem.
    The problem with criminalization is----
    Mr. Lungren. So let me ask you this, since you brought up 
methamphetamine. You would not suggest the decriminalization of 
methamphetamine, would you?
    Mr. Egan. Well, frankly, I think it is off-point, but----
    Mr. Lungren. No, no, but you brought it up. So I am asking 
you a question. Would you think about seriously decriminalizing 
methamphetamine use and distribution?
    Mr. Egan. I brought it up as an example of how education 
and advertising and information of that nature is more 
successful than criminalization.
    I don't know necessarily that I would think that it would 
be wise to decriminalize methamphetamines. I think that we have 
to make intelligent choices and draw certain lines in certain 
places.
    What I see, however, is a trend for ever-increasing length 
of sentences, ever-increasing mandatory minimums, ever-
increasing ``we are going to get tough on this issue'' and a 
lot of money spent. And, frankly, it has become quite an 
industry, the prosecution of----
    Mr. Lungren. Okay. I appreciate that. I would take issue 
with you that it has become an industry, as if those involved 
in the drug war from the law enforcement side somehow view it 
as an industry, in the sense that this somehow gives them a 
means of living and so forth.
    Mr. Egan. I didn't mean to suggest that----
    Mr. Lungren. Well, we ought to be more careful with what we 
say about that, because there are a lot of good men and women 
working in a dedicated way to try and get rid of the scourge of 
drugs because they have seen what the abuse of drugs does to 
people in this country, particularly young people. Just about 
every family has had an experience with someone not too far 
from them who has been ruined by drugs. And I doubt that 
anybody is exempt from that.
    When you see the devastation that it does to lives, it 
seems to me that we ought to attempt to try and fight it as 
best we can. We can have arguments on the margins, but it just 
seems to me the effort we are making is worth it.
    Mr. Rannazzisi, there has been some criticism of the bill 
before us with respect to the penalties involved. Let me cite a 
couple of sections to you specifically.
    Penalties, section 3(e) imposes mandatory minimum sentences 
to crimes that did not previously have mandatory minimums, or 
at least that is the argument. Specifically, the section 
changes existing law so that small amounts of flunitrazepam are 
now subject to the same statutory penalties as large amounts.
    First of all, is that correct? And what is the reason for 
this? And how would that be related to the uniqueness of 
Internet pharmacies?
    Mr. Rannazzisi. Let me preface this by saying I am not an 
expert on sentencing.
    From what I understand of the vision of the bill, the 
mandatory minimum would only trigger when there is death or 
serious bodily harm that results from distribution, known 
distribution of that drug, Rohypnol.
    I am not very comfortable answering that question because 
that is just not my area of expertise, as far as Rohypnol.
    Mr. Lungren. Okay. Well, the reason I ask that is it is my 
understanding that this section that it refers to, 21 USC 
841(b)(1)(C), as currently written, and with reference through 
this bill, would impose the mandatory minimum where the 
prosecution has proven that ``death or serious bodily injury 
resulted from the use of the substance that was unlawfully 
manufactured or distributed.''
    So, as I understand it--and I just wanted to know if this 
was your understanding--if death or serious bodily injury does 
not result from the unlawful manufacture or distribution of 
this specific substance, the effect of the bill would not be to 
have a mandatory minimum. Is that your understanding too?
    Mr. Rannazzisi. That is my understanding, that the 
mandatory minimum is not triggered. That is----
    Mr. Lungren. So all I am saying is that we can talk about 
and argue about mandatory minimums--and I have said that on 
other statutes I would be willing to look at mandatory 
minimums, see whether they are appropriate, those that are 
already in law. But I just wanted to make clear that, in this 
instance, as I understand this bill, the mandatory minimum only 
comes into effect where you have death or serious bodily injury 
resulting from the illegal substance referred to.
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. Some would ask that if pharmacies and 
physicians are already subject to DEA registration and State 
licensure, why is this bill needed?
    Mr. Rannazzisi. Because what this bill does is it forces 
them--the first thing it does is creates a definition for what 
a valid prescription is. It basically sets out guidelines for 
what a doctor is responsible for.
    The second thing it does--and this is very important to 
us--is it makes these pharmacies identify themselves on the Web 
site, so we know exactly who is in the pool. If you asked me 
right now how many pharmacies, and who are they, distributing 
by the Internet, I couldn't tell you. I just don't know----
    Mr. Lungren. If I were to ask you that question about 
brick-and-mortar pharmacies in a particular State, could you 
tell me that?
    Mr. Rannazzisi. I could tell you exactly how many brick-
and-mortar pharmacies in each State there are. There are about 
66,000 retail pharmacies across the country, and I could tell 
you every one of them if they are DEA-registered.
    Mr. Lungren. Is that true for you, Mr. Winsley, in your 
State?
    Mr. Winsley. Yes, sir. There are a little over 2,000 retail 
pharmacies----
    Mr. Lungren. So what we have here is, because of the 
newness of technology and its application, we have an ability 
to create distribution centers which are not regulated in any 
real sense, compared with the regulation we have developed over 
years with respect to dispensing authorities--that is, 
pharmacies. Is that correct?
    Mr. Rannazzisi. That is correct.
    Mr. Lungren. Ms. Jones, you have talked about the number of 
online pharmacies that you basically, I guess I would say, 
closed down, but you have done your best to make sure that they 
are no longer operating with the benefit of Go Daddy.
    You had given us some numbers, that, last year, I think it 
was 1,300, something like that, that you had closed down. And, 
this year, the first two quarters it has been 6,000?
    Ms. Jones. Six thousand.
    Mr. Lungren. Is that because you are more attentive to it, 
or is it because you see an explosion in the numbers, number 
one?
    And, number two, do you find that there are individuals 
that set up multiple such online pharmacies?
    Ms. Jones. To answer your first question, it is not that we 
are more attentive, because we have had an active, 24-by-7 
network abuse department that has been responding to these 
issues for a long time now. What we do see is more third 
parties reporting instances of online pharmacies to us.
    And, by the way, the 6,000 domain names that we disabled in 
the first 6 months of 2008 came to us by way of spam 
complaints. Okay? And that is really our only tool right now, 
is if we know that they are sending out pill spam, the kind of 
spam that all of us get in our e-mail boxes every day that 
advertises--well, you know what they advertise.
    Mr. Lungren. So I should report it to you when I get these, 
is that right? [Laughter.]
    Ms. Jones. Yes, absolutely.
    And to answer your second question, we do see----
    Mr. Lungren. I am afraid to even respond to them, afraid 
they will get my name. I just get rid of them right away.
    Ms. Jones. Just a bit of unsolicited advice: Do not 
respond. Do not respond and say, ``Please take my name off your 
list.'' It just proves to them that you actually are a good, 
valid e-mail address.
    But to answer your second question, we do see a core of 
users who run multiple, multiple, multiple Web sites. So one 
violator may have 100 Web sites of all varying names and types. 
They may have some that are devoted to Viagra, some that are 
devoted to Propecia, some that are devoted to OxyContin, 
Vicodin, ecstasy. Whatever the name is, they register a domain 
name that is specifically associated with that particular drug. 
So we do see repeat, repeat, repeat offenders.
    But today there is nothing that makes the content per se 
illegal. So, like, for example, with child pornography, the 
National Center for Missing and Exploited Children or the FBI 
or ICE or another agency can come to us and say, ``We know that 
there is a child pornography site operating on your network; 
could you please take it down?'', and we say, ``Absolutely.'' 
No questions, no notice, ``You go away, because what you are 
doing is illegal.''
    That is the kind of tool that we are looking for with the 
online pharmacy sites, not to disable the valid 2,000 sites in 
Ohio, but to disable the invalid, counterfeit, no-prescription-
needed Web sites.
    If we had that tool, then we could just say, ``Are you on 
the list? If you are not on the list, you have to go away until 
you get your name on the list. It doesn't matter to me where 
you are. You can be overseas, you can be in any State, could be 
on the moon, I don't care. Get your name on the list, or you 
have to go away.''
    Mr. Lungren. Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Let me follow up on that. There is no list right now?
    Ms. Jones. There is no database that we can hit against to 
say, ``Are you on the DEA's list? Are you on the FDA's list?'' 
We don't have that tool.
    Mr. Scott. And if there were such a list, you could check 
it and eliminate them from your site?
    Ms. Jones. Correct.
    Mr. Scott. What power would the Department of Justice have 
over sites operated in foreign countries?
    Ms. Jones. I don't know what power they would have, other 
than to say, ``If you are in another country and you want to 
sell drugs via a Web site that is available to U.S. users, you 
have to get your name on this list.''
    Mr. Scott. Well, and if they don't, what enforcement power 
would Department of Justice have for someone operating a site 
physically located in, say, Iran?
    Ms. Jones. Only that they could call up the domain-name 
registrar or the hosting provider and say, ``They are on the 
list. Could you please disable this Web site?'' Would they have 
jurisdiction to go pursue the offense? Maybe, maybe not.
    Mr. Scott. Are there hosting sites outside of the United 
States?
    Ms. Jones. Absolutely.
    Mr. Scott. And so they would have no jurisdiction over a 
hosting site physically located outside of the United States?
    Ms. Jones. Presumably. I mean, I understand that law 
enforcement does work with cross-jurisdictional agencies from 
time to time. We----
    Mr. Scott. And if it is a country with whom we do not have 
good diplomatic relations--I think Mr. Egan's point was you 
would get rid of all the domestic sites and you would force 
people offshore.
    Ms. Jones. Potentially. And we have seen that.
    Although, the availability and the ease of access of, for 
example, not to overuse this, but of child pornography has been 
effective. It is much more difficult for just your everyday, 
average user to find a child porn site, because what we have 
done here is said that content, itself, is per se illegal. And 
so it forces the users to have user-to-user access, makes it 
much more difficult for a child, for example, to go find that 
content.
    Mr. Scott. Mr. Winsley, we want to allow the legitimate 
organizations to flourish and not the illegitimate ones. One of 
the issues is whether or not a face-to-face visit with a 
prescribing physician is necessary. We have heard that some 
people live in rural areas where this may not be feasible.
    Is a face-to-face visit with a licensed physician 
necessary?
    Mr. Winsley. Mr. Chairman, on every occasion, no. However, 
initially, yes.
    Our point is and our State medical board's point--I have 
included their rule in my written testimony, which has been in 
existence since the 1990's--our opinion is that there must be 
an established doctor-patient relationship. That means that the 
doctor and the patient have come together.
    For example, Mr. Chairman, your personal physician, if you 
are out travelling and you come down with a sinus infection, 
there is no problem with you calling your personal physician on 
the phone, saying, ``Here is what my symptoms are,'' lo and 
behold, he calls in a prescription across State lines to where 
you are, deals with it. But he knows you. He has already done 
all the indignities to you that our doctors do to us. 
[Laughter.]
    He has evaluated you. And so there is an established 
relationship.
    Mr. Scott. So a requirement that there be at least one 
face-to-face visit and a valid doctor-patient relationship 
would be not be a problem even in rural areas?
    Mr. Winsley. It should not be.
    The other issue, Mr. Chairman, is that, in Ohio, we legally 
define prescription drugs--we call them ``dangerous drugs.'' 
That is the legal term. The reason for that is that they are 
well-proven--I think Mr. Rannazzisi pointed this out too--but 
these drugs are dangerous if they are used inappropriately.
    What I point to you in my written testimony is the drugs 
that the two Internet pharmacies that we most recently dealt 
with dispensed. And if you look at those hydrocodone products, 
you will notice that the overwhelming majority of them were the 
highest strength available.
    And yet, I don't know if anybody on the Committee has had 
recent surgery; I am not asking because of the HIPAA privacy 
rules. But I will tell you that I did, and I know a lot of 
people who have. And when we came out of surgery, the drug that 
we were prescribed was Vicodin, five milligrams. And that was 
perfectly adequate.
    But every drug-trafficking site that we have been involved 
with and, in fact, some of the face-to-face drug-trafficking 
physicians that we have dealt with, the drugs that they have 
prescribed have always been the hydrocodone, 10 milligrams; the 
OxyContin, higher level milligram doses, not the doses that 
normal patients use.
    So not only is there not an established doctor-patient 
relationship, but in many of these cases the patients are using 
this just to access the highest-strength drugs available.
    Mr. Scott. If the Internet sites were required to be 
registered, it would be a State board of pharmacy with 
jurisdiction over each one that is registered; is that right?
    Mr. Winsley. There would be.
    Mr. Scott. And you would be able to have some quality 
control over what is going on. Which is unlike what is going on 
now.
    Mr. Winsley. Mr. Chairman, if we know where they are at, we 
can reach them.
    Mr. Scott. So if they are in your State, you would be able 
to oversee for quality control, so consumers would have some 
confidence in what they are dealing with. We have heard that 
some of these out-of-country sites mail in--you wonder why they 
even bother to mail the drugs. Why don't they just take the 
money and run? I mean, they close up after 4 months.
    But you would be able to provide quality controls so that 
the consumer has some confidence that they are getting what was 
prescribed?
    Mr. Winsley. If they were in my State and we knew about 
them, yes, sir.
    Mr. Scott. And, Mr. Rannazzisi, if they are registered, the 
DEA could do occasional periodic testing to make sure that they 
are complying with the laws?
    Mr. Rannazzisi. Yes. And they would be identified, and it 
would help us out in the long run.
    Mr. Scott. But the consumer could check the list to 
ascertain whether or not the pharmacy they are dealing with 
online is actually a legitimate pharmacy and not some fly-by-
night something from who knows where?
    Mr. Rannazzisi. But when the consumer hits the Web site, he 
is going to see exactly who he is dealing with. All that 
information will be on the Web site. So he could check the 
list, but it is going to be on a Web site.
    Mr. Scott. Yes, but the Web site is also on the list so he 
knows it is not a fraudulent Web site with counterfeit 
information.
    Mr. Rannazzisi. I think the consumer, if he was worried 
about that Web site, could cross-check the Web site with the 
State board of pharmacy, which has that information available. 
So he would basically be able to know that where he is ordering 
from is a legitimate pharmacy.
    And that really knocks out a lot of the foreign pharmacies 
then, because if you are hitting a Web site that you know has a 
DEA registration number and is licensed by the State board of 
Ohio, he could check the board, check with DEA, and then order 
his drugs.
    Mr. Scott. Thank you.
    The gentleman from California.
    Mr. Lungren. Mr. Rannazzisi, my question is this. I want to 
make sure we crack down on the illicit distribution of drugs. I 
want to make sure that people in rural areas are not denied 
access because of additional impediments.
    What is the standard use now for doctors in their 
prescribing of drugs, the relationship with the patient? What 
does DEA look at, if they were to look at whether a doctor was 
prescribing appropriately or not?
    Mr. Rannazzisi. Well, to issue a valid prescription, the 
doctor has to issue that prescription for a legitimate medical 
purpose and in the usual course of that individual 
practitioner's practice. That is the standard, that is the 
standard that was set by the court, standard that is set in the 
regs.
    And there are a lot of ways to look at that. But if you 
look at what the AMA guidelines and the Federation of State 
Medical Boards' guidelines, they discuss Internet prescribing 
and particularly what a valid prescription is. They say that, 
you know, you have to do a complete medical history. You should 
have at least one face-to-face, in-person examination. Those 
are the guidelines from the Federation of State Medical Boards 
and the American Medical Association.
    Bill, if you want to jump in, I think that is what Ohio has 
too, doesn't it?
    Mr. Winsley. Well, in my written testimony, at the very end 
there are copies of our medical board's rule and pharmacy 
board's rule dealing with this issue. Those rules came into 
effect after our first Internet case back in 1998. And if you 
read those, they pretty much are the basis for what FSMB and 
AMA have come out with.
    Mr. Lungren. Well, see, my point is, I want to make sure, 
and I don't think the bill does, that this prospective law does 
not go beyond what the common practice would be in a 
relationship of a doctor-patient.
    It is not required, as mentioned by Mr. Winsley, to have a 
face-to-face every time you get a prescription. You have to 
have an established relationship with the doctor. And that 
could be your physical, and then after that the doctors 
establish things. It could be that you have a physical every 
year. It could be that you don't see the doctor for 5 years, 
but he has your record, he talks with you, those sorts of 
things.
    I don't want us to be interfering beyond that. But what I 
would want us to do is to make sure that if you are getting a 
prescription from an online pharmacy, you basically are 
following the same regime, the same custom and practice that 
you are with a physician when you get it from a brick-and-
mortar pharmacy.
    Mr. Rannazzisi. Yes, sir. And that is outlined in the AMA 
and FSMB, the Federation of State Medical Boards, guidelines.
    Additionally, what the federation says is, treatment, 
including issuing a prescription, based solely on an online 
questionnaire or consultation does not constitute an acceptable 
standard of care.
    Mr. Lungren. Let me ask this. Some might say, ``Hey, look, 
all this is is the brick-and-mortar pharmacies trying to make 
it difficult for the online pharmacies.'' You know, that is 
what their axe to grind is in this whole thing.
    And these doctors, including the medical societies, they 
want to make sure that you are not spinning off patients to 
doctors who have embraced the new technology, so that you don't 
have to have face-to-face, you can actually converse with your 
doctor over the phone or even through the Internet in some sort 
of way.
    What would you say to that?
    Mr. Rannazzisi. I believe we are talking about now S. 980, 
the bill has----
    Mr. Lungren. Correct.
    Mr. Rannazzisi [continuing]. Provisions that deal with 
that. They have telemedicine provisions. They have provisions 
that deal with certain situations where a doctor may not be 
able to do a face-to-face. But it is built into the law.
    That bill went through the interagency, and everybody who 
looked at it, you know, looked at it from their point of view. 
How is it going to affect patient care? That is how HHS looked 
at it, and FDA. The Veterans Administration looked at it. When 
that bill was drafted, it had the input of every agency that 
evenly remotely had some kind of contact with patient care.
    The provisions that were put in that bill protect a lot of 
the people that, for some reason, can't go to see a doctor. 
There are provisions built into that bill that will allow for 
exceptions; and also telemedicine, which is an emerging trend.
    Mr. Lungren. It is my understanding that the bill has these 
penalties attached to people who are in the process of 
distributing the drugs, as opposed to the person using. Is that 
correct?
    Mr. Rannazzisi. That is right. The bill addresses, again, 
distributors of the drug, not ultimate drug users.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Mr. Rannazzisi, how does the distributor or the owner of 
the Web site get the drugs, get access to the drugs to begin 
with? Does the manufacturer ship them to a warehouse?
    Mr. Rannazzisi. The owner of the Web site generally does 
not touch the drugs. He is a facilitator. He employs or he 
recruits doctors and pharmacists. And those doctors and 
pharmacists run the transaction. The facilitator, the Web site 
facilitator is a generally a layman. All he does is bring the 
doctor and the pharmacy and the patient together for one 
transaction.
    Mr. Scott. So they have to get--wherever the drugs land, 
wherever the warehouse is that the drugs--are they registered?
    Mr. Rannazzisi. The pharmacy that dispenses the ultimate 
prescription is generally a DEA-registered pharmacy.
    Now, obviously, the question was asked about overseas 
pharmacies; DEA has no regulatory control over an overseas 
pharmacy or distributor. However, here in the United States, we 
do.
    And, generally, our pharmacies that dispense the drugs are 
DEA registrants. Doctors that prescribe the medication are also 
DEA registrants.
    Mr. Scott. So you already have a list of all of the 
domestic sources for the drugs?
    Mr. Rannazzisi. I have a list of all domestic pharmacies 
that are DEA-registered and all doctors that are DEA-registered 
as well. But that list only tells us that they are pharmacies. 
It doesn't tell us if they are involved in Internet dispensing. 
It doesn't say if the doctor is involved in Internet 
prescribing.
    Mr. Scott. Is this bill limited to Internet drug sales? Or 
do the penalties relate to general sales in addition to 
Internet sales?
    Mr. Rannazzisi. I believe that the provisions increasing 
the caps relate to all Schedule 3, 4 and 5 drugs, and not just 
limited to Internet sales of Schedule 3, 4 and 5 drugs.
    Mr. Scott. Now, you have acknowledged that there are 
mandatory minimums in the bill?
    Mr. Rannazzisi. No. The Rohypnol provision, which is--by 
the way, Rohypnol is not a pharmaceutical controlled substance 
in the United States. It is not a legitimate medication in the 
U.S. It is only used outside of the borders of the United 
States.
    Mr. Scott. And that is the only mandatory minimum that is 
in the bill?
    Mr. Rannazzisi. That I am aware of, yes. And that is, 
again, if there is----
    Mr. Scott. Is that the ``roofie''?
    Mr. Rannazzisi. Yes, Rohypnol, yes.
    Mr. Scott. But there are mandatory minimums for that drug?
    Mr. Rannazzisi. The way I understand it, again, is that 
that mandatory minimum is triggered if there is death and 
bodily harm attached to the distribution.
    Mr. Scott. Okay. Are you aware of any studies that show 
racial bias in the application of mandatory minimums?
    Mr. Rannazzisi. Am I aware of any studies? I am aware that 
that subject has been debated in Congress and the Sentencing 
Commission, but, no, I am not aware of any studies, no, sir.
    Mr. Scott. So if someone were to say that mandatory 
minimums are generally imposed in a racially discriminatory 
manner, you wouldn't have any evidence to contradict that?
    Mr. Rannazzisi. I don't believe I would be the best person 
to ask, sir. Again, I am not an expert on sentencing for the--
--
    Mr. Scott. Well, you are here--well, so, if we drop the 
mandatory minimums out of the bill, would you object to that?
    Mr. Rannazzisi. That would be up to the Administration to 
make that decision.
    Mr. Scott. Are you aware that the Judicial Conference has 
described mandatory minimums as often violating common sense?
    Mr. Rannazzisi. I am sorry, sir. Could you repeat that 
question?
    Mr. Scott. Are you aware that the Judicial Conference has 
frequently communicated with this Committee describing 
mandatory minimums as frequently violating common sense?
    Mr. Rannazzisi. Again, sir, no, I am not aware of that. 
But, again, I don't follow sentencing----
    Mr. Scott. So you don't have any evidence on behalf of the 
Administration to contradict the fact that mandatory minimums 
often violate common sense?
    Mr. Rannazzisi. I would rather not respond to that 
question, sir.
    Mr. Scott. Okay. The RAND Corporation has studied mandatory 
minimums in drug offenses and concluded that mandatory minimums 
waste the taxpayers' money. Do you have any evidence to 
contradict the fact that the imposition of mandatory minimums 
in the bill will waste the taxpayers' money?
    Mr. Rannazzisi. No, sir, I don't have any information to 
give this Committee on that topic.
    Mr. Scott. Can you explain to us whether or not you have 
found any studies that show that mandatory minimums work?
    Mr. Rannazzisi. Again, sir, I don't know of any studies and 
I wasn't prepared to come here to discuss the mandatory minimum 
sentences.
    Mr. Scott. Well, they are in the bill, and, you know----
    Mr. Rannazzisi. Again, there is no mandatory minimum 
sentence, other than the imposition of the----
    Mr. Scott. So if you are not here to defend the mandatory 
minimum, you wouldn't--or at least it is not your call to 
support or oppose whether they are removed from the bill.
    Mr. Rannazzisi. Again, that would be an Administration 
decision.
    Mr. Scott. Who exactly would we hear from to ascertain 
whether or not you have given up on a provision that has 
racially discriminatory qualities to it, violates common sense 
and wastes the taxpayers' money?
    Mr. Rannazzisi. You could, I am sure, contact the 
department. And I will go back and relay that message to the 
department.
    Mr. Scott. Now, you don't need increased penalties to 
enhance enforcement. I mean, even without the enhanced 
penalties, if you prosecuted someone and got a conviction, you 
would pretty much put them out of business with the present 
penalties, would you not?
    Mr. Rannazzisi. Obviously, yes, they would be incarcerated 
and we would remove their registration and, if appropriate, 
seize their assets, yes.
    Mr. Scott. Now, what do you need to do to enhance 
enforcement?
    Mr. Rannazzisi. Again, the bill helps us by creating a pool 
of Internet pharmacies that are operating. It is a ready pool 
that we could look at and determine who is operating on the 
Internet and who is not. It helps us in our investigations to 
identify who the players are operating on the Internet.
    Mr. Scott. And so, once you have that list, you have the 
tools that you need to prosecute those that are operating 
outside of the----
    Mr. Rannazzisi. Well, no, there are other things: the 
establishment of what a valid doctor-patient relationship is, 
what a valid prescription is. That is very important; puts 
everybody on notice that this is what is expected.
    Mr. Scott. Okay, so you make a list. You have, what, the 
definition of valid prescriptions?
    Mr. Rannazzisi. Yes.
    Mr. Scott. Okay, what else do you need to enhance 
enforcement?
    Mr. Rannazzisi. If you would excuse me 1 second.
    Obviously, definition of what the Internet is, what 
Internet delivery is; all of the registration requirements that 
we have asked for, which we cannot do by regulation; reporting 
requirements--that is, if you are operating as an Internet 
pharmacy, you have to make certain reports to the attorney 
general on the quantity of drugs you are selling via the 
Internet.
    Mr. Scott. Do you necessarily have to be under a State 
board of pharmacy?
    Mr. Rannazzisi. Any pharmacy that operates in the United 
States is governed by a State board of pharmacy.
    Mr. Scott. Is that right, Mr. Winsley?
    Mr. Winsley. Yes, sir. If it is a legitimate pharmacy, it 
is licensed with the State in which it is located and usually, 
if it transports drugs across State lines, with the rest of us 
for shipping. You know, in Ohio, for example, anyone who ships 
drugs into Ohio is licensed with us. So we have pharmacies 
licensed from all over the country.
    Mr. Scott. So anyone that ships drugs in response to an 
Internet order, if they ship into Ohio, they should be 
registered in Ohio?
    Mr. Winsley. The law is that they be licensed with us, yes, 
sir.
    Mr. Scott. And so, if you have some of these well-known 
pharmacy Web sites--I have ordered stuff over the Web, not 
prescriptive drugs. If I were to order a prescriptive drug over 
the Internet, they would have to be licensed in Virginia?
    Mr. Winsley. If they were operating legally, which is our 
concern here.
    The ones we are talking about don't bother to get licensed. 
We have no ability to get to them. We know that Ohio people got 
drugs, and we know that they had a problem. So when they tell 
us where they got them, the site is not anybody that we have 
jurisdiction or control over.
    And that is the advantage to this bill: It does give the 
Federal agencies, DEA in particular, the advantage to deal with 
those that are located outside of my State.
    Mr. Scott. Okay. So we get a list, we create the pool, we 
have reporting to the attorney general, we define the Internet, 
we define valid prescriptions. What else is in the bill that 
helps you?
    Mr. Rannazzisi. The advertising provision. With the bill, 
this prohibits people advertising to sell a pharmaceutical 
controlled substance illegally.
    Mr. Scott. Is spam advertising?
    Mr. Rannazzisi. I would have to go back and look at the 
spam, but I am--well, yes, I have seen some of those spam 
messages, absolutely, ``Hydrocodone without a prescription, no 
doctor visit required,'' yes.
    Mr. Scott. Ms. Jones, is there any question that spam would 
be advertising?
    Ms. Jones. Absolutely not. It is absolutely--unsolicited 
commercial e-mail is an advertisement.
    Mr. Scott. Is?
    Ms. Jones. Is.
    Mr. Scott. Okay.
    Ms. Jones. And I would add another thing, is that the bill, 
I think, calls for a display of the compliance with the DEA 
list. That would be very helpful, at least from our 
perspective, and, I think, noncontroversial.
    Mr. Scott. So if someone received an advertisement without 
the DEA designation, you would know it was illegal. And if it 
came with the DEA logo, you would know where to go to check 
them out.
    Ms. Jones. I wasn't even thinking of that, but that would 
be helpful as well. I don't think the current version of the 
Senate bill calls for that. But it would be an interesting 
idea, to actually require it in the advertising as well.
    Mr. Scott. The gentleman from California?
    Mr. Lungren. I am glad to hear that the Chairman is trying 
to beef up the bill. Very good. Parts of it.
    We keep talking about the mandatory minimums. I just want 
to make it clear that, with Rohypnol, what the bill does is 
drop the one-gram requirement that currently is in the law, but 
it does not change the requirement that, for mandatory minimum, 
one must be prosecuted successfully for having death or serious 
bodily injury resulting from the use of the substance that was 
unlawfully manufactured or distributed.
    And the cross-reference to serious bodily injury is ``an 
injury which involves substantial risk of death, extreme 
physical pain, protracted, obvious disfigurement, protracted 
loss or impairment of the function of a bodily member, organ or 
mental faculty.'' That is pretty serious stuff.
    So we are not really creating a new mandatory minimum. What 
we are saying is the one-gram requirement is not there with 
respect to the trafficker, so long as you can show that death 
or serious bodily injury resulted in that.
    Mr. Rannazzisi, are you aware of any studies that suggest 
that Rohypnol is particularly utilized by one ethnic group or 
another or one racial group or another in the United States?
    Mr. Rannazzisi. No, sir.
    Mr. Lungren. It is what is commonly known as the date-rape 
drug, is that correct?
    Mr. Rannazzisi. Yes, it is used in facilitation of sexual 
assault.
    Mr. Lungren. And it was in the 1990's that Congress passed 
laws specifically dealing with this drug for the first time?
    Mr. Rannazzisi. Yes, I believe it was in the late 1990's. 
The drug is not a pharmaceutical in the U.S.
    Mr. Lungren. Right. And in 2006, Congress amended the law 
to add a new specific offense prohibiting the use of the 
Internet to distribute the date-rape drug.
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. So this is beyond controlled substances or 
dangerous drugs. This isn't on any schedule whatsoever for use, 
correct, for an FDA-approved use?
    Mr. Rannazzisi. It is not approved to be marketed or 
dispensed in the United States. FDA has not approved it to be 
marketed or dispensed in the United States.
    Mr. Lungren. And there has been question about Internet 
sites that are offshore. That is referred to in the bill when 
it talks about making this bill compatible with the already-
existing provisions of law making it illegal to import 
controlled substances into the United States from foreign 
countries or territories, correct?
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. In fact, the law says specifically, on the 
books, ``It shall be unlawful to import into the customs 
territory of the United States from any place outside thereof 
any controlled substances of Schedule 1 or Schedule 2, any 
narcotic drug in Schedule 3, 4 of 5 of this chapter.''
    So it is illegal to import the drugs into the United 
States, correct?
    Mr. Rannazzisi. As far as controlled substances, I could 
tell you that any quantity of controlled substances that are 
coming in via carrier or mail, unless it is going to a DEA-
registered importer, it is illegal and it is subject to 
seizure.
    Mr. Lungren. So this law would help you with respect to 
that, in that we would be setting up a schematic in which there 
would be information to the consuming public as to whether or 
not the site was registered with the DEA.
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. There would be the ability for them to check 
that against whatever approved list that you have.
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. There would be an ability for people then to 
check with the State involved, either the reported sending 
State or the receiving State, as to whether they were 
registered.
    Mr. Rannazzisi. Yes, sir.
    Mr. Lungren. If, in fact, it failed those tests and it 
appeared that it was coming from outside the United States, 
that would at least give you some indication to start an 
investigation as to where it was coming from, and the act 
itself would be illegal under the terms of current law, 
correct?
    Mr. Rannazzisi. That is absolutely correct, sir.
    Mr. Lungren. So even though we have the problem with those 
that are overseas, this would at least give us more databases 
and more information from which to launch an investigation into 
what may be an illegal site.
    Mr. Rannazzisi. That is correct, sir, yes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Scott. Thank you.
    I just had a couple of points.
    One, distributing the date-rape drug over the Internet is 
already illegal. What this would do would be to expand that 
mandatory minimum to other sales not over the Internet. Is that 
right?
    Mr. Rannazzisi. I am sorry, sir. I don't follow you there.
    Mr. Scott. In 2006, the Controlled Substances Act was 
amended prohibiting the use of the Internet to distribute a 
date-rape drug, which the Congress defined, included a maximum 
sentence of 20 years.
    Mr. Rannazzisi. Yes, sir.
    Mr. Scott. And another question: One of the problems with 
the mandatory minimums is that you not only get the main 
perpetrator but everybody who is part of the conspiracy. Is 
that right?
    You know, you bust a warehouse. Everybody is subject to the 
same mandatory minimum sentence, not just the ringleader, but 
the people off on a tangent would also be looking at the same 
mandatory minimums, even if it made no sense to impose the 
penalty on someone who is just out there on a tangent.
    Mr. Rannazzisi. I believe that would be up to the United 
States attorney where the district is.
    Mr. Scott. Wait a minute. But if they were prosecuted and 
found guilty, the judge would have no discretion but to impose 
the draconian mandatory minimum on someone who was just out 
there on a tangent.
    Mr. Rannazzisi. Again, sir----
    Mr. Scott. So we will leave it to the discretion of the 
prosecutor to decide----
    Mr. Rannazzisi. Discretion of the judge.
    Mr. Scott. Well, unfortunately, with a mandatory minimum, 
that is the problem. If it makes no sense, the judge has to 
impose the mandatory minimum anyway.
    Mr. Egan, did you have something to say about that?
    Mr. Egan. Yes, sir. What I wanted to speak to was the fact 
that what this does is it takes the discretion to not apply 
that sentence to those individuals who maybe are not the main 
perpetrator away from the court and places it in the hands of 
the United States attorney, who makes that decision based upon 
whatever they feel is appropriate under the circumstances of 
the case.
    So that the application is now vested in the executive 
branch and taken away from the judicial branch, where it 
properly resides.
    Mr. Scott. And if someone has just a distant connection 
with the conspiracy and they are brought in and convicted with 
everybody else, how much discretion does the judge have in 
imposing a mandatory minimum sentence?
    Mr. Egan. None.
    Mr. Rannazzisi. Again, sir, for this particular drug, 
though, that only triggers if there is death or serious bodily 
harm.
    Mr. Scott. And if you were not the ringleader but, say, a 
lookout, you get the same--what is the mandatory minimum? 
Twenty years or whatever it is? You get 20 years for being the 
lookout? You shouldn't have been a lookout.
    And if you are the lookout's assistant, so if you took a 
message--this is where the girlfriends get involved--you took a 
message for somebody, you are part of the conspiracy, you get 
roped in, you get the same mandatory minimum with everybody 
else?
    Mr. Rannazzisi. Sir, again, that is a question that I am 
more than happy to take for the record and respond in writing.
    Mr. Scott. Mr. Egan, if somebody takes a message and is 
part of the conspiracy and gets roped in, do they get the same 
mandatory minimum like everybody else?
    Mr. Egan. As long as what the mandatory minimum requires to 
have taken place is met by that person's actions, then they get 
the mandatory minimum, unless the prosecution decides not to 
pursue it. It is totally within their discretion.
    Mr. Scott. Thank you.
    The gentleman from California?
    Mr. Lungren. Just for the record, to make it clear, what we 
are talking about is Rohypnol, a date-rape drug--date-rape 
drug--approved for no purpose in the United States, no medical 
purpose whatsoever--a date-rape drug. And in the distribution 
of this date-rape drug, someone is killed or some victim 
receives serious bodily injury. And under those circumstances, 
the people who conspired together to create that situation will 
be subject to a mandatory minimum.
    Is that correct, Mr. Rannazzisi?
    Mr. Rannazzisi. Yes, sir, that is correct.
    Mr. Lungren. Okay.
    Thank you, Mr. Chairman.
    Mr. Scott. If there are no further questions, we want to 
thank the witnesses for their testimony.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    And, again, I thank the witnesses.
    And, without objection, the Committee stands adjourned.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
